fl

.

.

. No.

In the
Supreme Court of the United States

Brady Ray
Petitioner
ft;

. VS.

•i.

Commonwealth of Kentucky
Defendant

4 -ft
4
s

PROOF OF SERVICE
tV.
I Brady Ray, do swear or declare that on this date,
V
20
as required by Supreme Court Rule 29 I have served the enclosed Motion for Leave to Proceed in
Forma Pauperis and Petition for A Writ of Certiorari on each party to the above proceeding or that
parties counsel, and every other person requires to be served, by depositing an envelope containing the
above documents in the United States mail property addressed to each of them and with first class
postage prepaid, or by delivery to a third party commercial career for delivery within 3 calendar days.
The names and addressed of those served are as follows: Kentucky Supreme Court at 700 Capital Ave.
Frankfort. Kv 40601: Daniel Cameron 1024 Capital Ave. Frankfort. Kv 40601; and Clerk Scott S.
Harris of United States Supreme Court at 1 1st NE Washington DC. 20543
I declare under penalty of peijury that the foregoing is true and correct.
\

Executed on

n-

,20Zl

^7
Signature

k
11 of 11

L

\

)

